U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF INSPECTOR GENERAL

                   INDIAN ARTS AND CRAFTS:
                          A CASE OF
                     MISREPRESENTATION




Report No. E-EV-OSS-0003-2005      June 2005
                                                            June 1, 2005


Memorandum

To:            Secretary

From:          Earl E. Devaney
               Inspector General

Subject:       Report on Evaluation of Indian Arts and Crafts

        In response to concerns raised by the Assistant Secretary of Policy, Management
and Budget and the commissioners of the Indian Arts and Crafts Board (IACB), the
Office of Inspector General (OIG) conducted a review of counterfeit Indian arts and
crafts. In a collaborative effort between OIG evaluators and investigators, we verified
and assessed, as well as obtained Indian artists' perspectives on the issue of
misrepresentation and counterfeiting in the Indian arts and crafts industry.

       As one of the most lucrative and sought after genres of art in the United States,
the demand for Indian arts and crafts attracts many non-Indians to pirate the profits. Our
review confirmed that an imitation Indian art market exists and that it negatively impacts
Indian artisans and communities. However, the extent of this problem is difficult to
quantify because of limited statistics, conflicting perceptions of what makes something
counterfeit, and public misconceptions regarding federal and state laws.

        We found that current laws, while well-intended, do little to protect Indian
artisans from the unfair competition created by low-priced, mass-produced imitations of
their work. The primary law, the Indian Arts and Crafts Act, is practically unenforceable
and does not provide adequate authority to the IACB. As a result, enforcement largely
depends upon the cooperation of agencies outside the Department of the Interior’s
control, such as the FBI and U.S. Customs and Border Patrol. Further, there are conflicts
between the Indian Arts and Crafts Act and current trademark law, which prevent the
IACB from facilitating the registration of trademarks for Indian artisans.

        Finally, we concluded that the IACB has focused most of its enforcement effort
on criminal prosecution, which has produced no identifiable results by way of either
criminal convictions or a measurable decrease in counterfeit activity. We discuss an
alternative approach to enforcement, by which the IACB could pursue action through
steadily increasing levels of severity, and an industry best practice. We provided four
suggested actions that the Department of the Interior, in cooperation with the IACB, can
implement to mitigate the current situation.

        We do not require a response to this report, but would appreciate being informed
of any actions you take in regard to our suggestions.
                                                 TABLE OF CONTENTS


INTRODUCTION .............................................................................. 1
  BACKGROUND ................................................................................................................. 1


RESULTS OF REVIEW ..................................................................... 3
  CONFIRMATION OF COUNTERFEIT MARKET ................................................................ 3
     Field Observations ............................................................................................................................... 3

     Survey Results ...................................................................................................................................... 4

     Interviews With Industry Experts........................................................................................................ 5

  EXTENT OF COUNTERFEIT MARKET ............................................................................. 5
     Nature of the Industry.......................................................................................................................... 5

     Varying Interpretations of “Counterfeit”............................................................................................ 6

     Differences in Federal and State Laws ............................................................................................... 6

  INEFFECTIVE PROTECTIONS AND LAWS ........................................................................ 7
     Problems With the Act ......................................................................................................................... 7

     Customs Law and Trademark Law……………………………………..……………………………………10

     An Industry Best-Practice…………………………………………………………………………………….12



CONCLUSION................................................................................ 13


SUGGESTED ACTIONS .................................................................. 14
This Page Intentionally Left Blank
                                       INTRODUCTION
In response to concerns raised by the Assistant Secretary of Policy, Management and
Budget and the commissioners of the Indian Arts and Crafts Board (IACB), the Office of
Inspector General (OIG) conducted a review to validate and quantify the issue of
counterfeit Indian arts and crafts. The OIG conducted the review from October 2004
through February 2005.

During our review, we interviewed artists, gallery owners, museum staff, traders, Indian
arts and crafts association officials, and other industry experts and reviewed available
literature on the subject. We also conducted a confidential survey of artisans at an Indian
arts and crafts market to obtain Indian artists' perspectives on misrepresentation and
counterfeiting in the Indian arts and crafts industry.

                                           Background
During the 1970s, the demand for Indian-style arts and crafts increased, prompting a
mass importation of imitations. By 1985, the Indian arts and crafts industry had grown to
an estimated 400 to 800 million dollars in terms of annual gross sales, according to a
Department of Commerce study.1 By 2000, Indian arts and crafts had become a billion
dollar industry in the United States.2 The U.S. Customs and Border Patrol (CBP) has
estimated that an average of $30 million in Indian-style arts and crafts is imported
annually from countries such as the Philippines, Mexico, Thailand, Pakistan, and China.3
These imports, combined with domestically produced imitations, represent an estimated
                            400 to 500 million dollars in revenue4 that could otherwise
                            belong to Indian artisans.

                                Regulation of the Indian arts and crafts industry is mainly
                                afforded through the federal Indian Arts and Crafts Act (the
                                Act), which was created in 1935 and amended in 1990 and
                                2000. The Act prohibits the sale or display of any good in a
                                manner that falsely suggests it is Indian produced, an Indian
                                product, or the product of a particular Indian or Indian tribe.
                                Originally, the Act created the Indian Arts and Crafts Board, a
     IACB Logo- Beadwork        separate entity of the Department of the Interior, to promote
      Paul McDaniels, Jr.
                                the economic welfare of Indians through the development and

1
  H.R. Rep. No. 400(I), 101st Cong., 2d Sess. 5 (1990) (Citing Robert E. Watkins, U.S. Department of
Commerce, “Study of Problems and Possible Remedies Concerning Imported Native American-Style
Jewelry,”1985).
2
  Testimony of the Council for Indigenous Art and Culture presented by Andy P. Abeita, submitted to the
U.S. Senate Committee on Indian Affairs’ Oversight Hearing on the Implementation of the American
Indian Arts and Crafts Protection Act, Public Law 101-644, May 17, 2000.
3
  Id.
4
  John Shiffman, “$1billion Industry Reeling as Faux Crafts Flood Market,” USA Today, April 8, 1998.
James Brooke, “American Indian Crafts Lose Native Edge as Foreign Fakes Flourish,” International
Herald Tribune, August 1, 1997.


                                                    1
expansion of the Indian arts and crafts industry. It also authorized the establishment of a
government trademark for genuine Indian products, and provided misdemeanor penalties
for counterfeiting the government trademark and knowingly misrepresenting goods as
Indian produced.5

After 55 years without a single criminal conviction, the Act was amended in 1990 in
order “to protect Indian artists from unfair competition from counterfeits.”6 The
amendments provided civil sanctions and increased penalties for knowingly
misrepresenting Indian products from a misdemeanor to a felony. If convicted,
individuals can now be ordered to pay a fine up to $250,000 and sentenced up to 5 years
in prison for the first offense and up to $1 million and 15 years in prison for subsequent
violations. Businesses can be fined up to $1 million for the first offense and up to $5
million for subsequent violations. The amendments also authorized the IACB to refer
complaints to the FBI for investigation and potential criminal prosecution or recommend
that the Secretary of the Interior refer the matter for civil action. Civil suits can also be
brought by an Indian tribe on behalf of itself, an individual Indian, or an Indian arts and
crafts association.

In response to the continued influx of imitation Indian arts and crafts, the Act was
amended again in 2000 “to improve the enforcement of the Act for the protection of the
economic and cultural integrity of authentic Indian arts and crafts.”7 The amendment
expanded civil enforcement by authorizing Indian arts and crafts organizations as well as
individual Indians to file civil suits on their own. It also enabled them to file suit against
the manufacturers, wholesalers, and others involved in the chain of distribution, instead
of only against the final retailer.




                     Squash Blossom                                  Basket
                        Necklace                                Rose M. Johnson
                       L. Benally                                    Navajo
                         Navajo                          Copyright 1986 Rose M. Johnson




5
  25 U.S.C. § 305(d)-(e) (1988). These sections were repealed in 1948 and the penalty provisions were
moved to the criminal code in 18 U.S.C. §§ 1158-1159 (1988).
6 House Report 101-400 (I) – “Indian Arts and Crafts Act of 1990.”
7 Senate Report 106-452 – “To Improve the Cause of Action for Misrepresentation of Indian Arts and

Crafts."


                                                    2
                               RESULTS OF REVIEW
Our firsthand observations, survey results, and interviews confirm that an imitation
Indian art market exists and that it negatively impacts Indian artisans and communities.
However, we cannot adequately quantify the extent of this problem because of limited
statistics. Misconceptions regarding the federal law and the various interpretations of
what constitutes counterfeit may also exacerbate the perception that there are more
violations of the Act than actually occur. Nevertheless, laws intended to protect Indian
artisans from unfair competition are weak and extremely difficult to enforce.

                       Confirmation of Counterfeit Market

Field Observations

To observe firsthand how Indian-style jewelry and other artwork were being represented,
we visited retail stores, street vendors, and airport gift shops in cities renowned for their
Indian art: Scottsdale and Sedona, Arizona, and Santa Fe, Gallup, and Albuquerque, New
Mexico. We observed a number of questionable business practices. For example, in
airport gift shops, we observed items that had adhesive price tags strategically placed on
top of their “Made in China” stickers. We also noticed that the same items seemed to
appear in multiple stores, indicative of mass production.

In some establishments we visited sales staff stated that everything in the store was
Indian handmade, yet offered huge, unadvertised discounts. For example, a belt buckle
set marked $1,200 was offered for $295. In some Arizona stores, display cases contained
unlabeled non-authentic Indian-style jewelry, which is not only misleading to consumers
but also violates Arizona state law. However, simply displaying these unlabeled
imitations is not a violation of federal law.

In another Arizona store, a salesperson, who claimed that everything in the store was
Indian handmade, showed us a coral and silver necklace stamped “Mexico 92” on the
back (“Mexico 92” indicates that the silver is sterling from Mexico). When asked about
it, the salesperson responded that it must mean “New Mexico.” The manager suddenly
appeared and told us that his store carried “Southwestern Jewelry” from all over the
world, and he explained that the display cases contained authentic Indian-made pieces
alongside imported pieces. He politely showed us which pieces were imported, yet
nothing was labeled. When asked why a bracelet from Thailand made of synthetic stones
was just as expensive as a similar Indian one, he claimed that some synthetic stones were
more expensive than natural stones. However, we found that synthetic stones are
typically only a fraction, sometimes as low as one-tenth, of the cost of natural stones.

In short, the stores we visited did not misrepresent non-Indian made items when we asked
about the origin of the items. However, non-Indian made items were rarely marked as
such and were sometimes located in the same display case with Indian-made items.




                                              3
Thus, uninformed buyers could easily assume that non-Indian made items were authentic
Indian made.


                                Which is
                             Authentic Indian
                               Handmade?
                                The piece on the left is
                             authentic Zuni jewelry, and
                              the one on the right is an
                            imitation manufactured in the
                                     Philippines.



Survey Results

We distributed a survey to over 300 Indian artists selling their work at the 28th Annual
Pueblo Grande Museum Indian Market in Phoenix, Arizona, in December 2004. A total
of 91 surveys were completed by artists representing 33 different tribes and a wide
variety of mediums, including jewelry, paintings, pottery, sculpture, and carvings.
Results from the artist survey indicate that counterfeit art continues to be a serious
problem for artists as well as legitimate vendors:

   •   78 percent of respondents stated they had seen imitation artwork represented as
       authentic Indian artwork.
   •   65 percent of respondents believed that the sale of imitation artwork affects them
       financially.

Nearly half of respondents indicated that they had seen or heard about a counterfeit of
their own artwork, and more than half had seen or heard about a counterfeit of another
artist's work. When asked to describe the circumstances, one artist provided the
following example: “We sold turtle shell drums and shields to a shop in Oregon. The
next time we went in, he had a whole wall of them. He took our shield and drum to
Mexico and had them mass-produced.” Another artist commented, “I have seen designs
and styles that I developed being mass-produced after I have done a public show. They
change it just enough to get by the copyright laws.”

Such encounters were typical, as survey respondents echoed these concerns: “It is hard to
compete with mass production,” and “Imitations flood the market, take sales, bring prices
down, and misrepresent the value and quality of artwork.” Others indicated that they saw
misrepresentation in Albuquerque, Gallup, and Phoenix, or simply “all over.”
Misrepresented items were also seen on QVC, the Home Shopping Network, the Internet,
Pow Wows, art shows, Indian-owned gift shops, wholesale businesses, and flea markets.




                                             4
Interviews With Industry Experts

Most of the 19 industry experts we interviewed had firsthand knowledge of
misrepresented Indian-style art. According to the experts, the vast majority of imitations
target the low to mid-range market, such as mass-produced fetish carvings. The most
prevalent genre for imitations is low- to medium-priced Indian jewelry, typically retailing
for $10 to $200, which is often mass-produced and affordable for the majority of
consumers. High-end, collector’s pieces created by famous artists are generally not
counterfeited because the buyer either purchases directly from the artist or is careful to
verify the origin of the piece. According to one industry expert, counterfeiting is based
solely on the fact that large quantities of an item, such as a small, silver turtle, can be
mass-produced at a low price. There is no financial incentive to copy and produce a
high-end product “if you can only sell six of them,” the expert told us.

                         The influx of imitation Indian arts and crafts diminishes
                         consumer confidence in the cultural integrity of the market and
                         decreases sales. Since imitation Indian arts and crafts are
                         generally mass-produced at a substantially reduced cost,
                         traditional Indian artisans must also undercut their prices by as
                         much as 50 percent to compete, drastically reducing their profit
                         margins. Even Indians are sometimes driven to sell the
                         imitations as their own work in order to make a living.
                         According to industry experts, retailers carry these overseas
         Pin
                         products because they sell. If business owners refuse to carry
     Myra Tucson         these items, in many ways they are “shooting themselves in the
     Zuni Pueblo         foot,” according to an interviewee, because their competitors will
                         carry the items and sell them at a lower price.


                           Extent of Counterfeit Market

Nature of the Industry

Although estimates exist, it is virtually impossible to quantify the actual extent of the
counterfeit market for a number of reasons. First, although a number of authentic Indian
arts and crafts companies exist, Indian arts and crafts producers are typically individuals
or small, loosely organized groups. Thus, unlike other organized industries, production
statistics and economic data are scarce. While there is a major trade association for
Indian arts and crafts, it does not compile statistics on the Indian art industry. Sales by
individual artisans at Pow Wows, flea markets, Indian markets, roadside stands and the
like are not tracked. Likewise, reliable statistics on the number of imported and
domestically produced imitations are not available.




                                             5
Varying Interpretations of “Counterfeit”

Second, estimates of the extent of the counterfeit market are clouded
by conflicting perceptions of what constitutes an “imitation” or a
“counterfeit.” Federal law only addresses the misrepresentation of
Indian-style products, yet the term “counterfeit” is used by many
people to denote much broader issues, such as unfair competition with
imports, traditional versus modern production methods, and the
“borrowing” of religious traditions from other tribes. For example,
many traditional Indian jewelers who use only hand tools and tufa8
stone casts are likely to consider jewelry made with power tools and
centrifugal casting as “counterfeit.” Another example of perceived
“counterfeiting” is the making of the kachina9 doll by tribes other than
the Hopi. Kachina dolls were originally made only by Hopi Indians as
part of their religious practice. As Hopi carvers began to market these
dolls commercially, other tribes, whose religious practices do not
include kachinas, began making and selling their own versions. To a
Hopi tribal member, a kachina carved by someone from any other tribe
would almost certainly be considered a “counterfeit.” In fact, some
artists who responded affirmatively to the survey question “Have you                        Kachina Doll
ever seen or heard about a counterfeit copy of another artist’s work?”                    Herbie Talahaftewa
mentioned “inter-tribal” counterfeiting, such as Navajos producing                           Hopi Pueblo
Hopi kachina dolls. Neither of these examples would be a violation of
federal law.

Although 78 percent of survey respondents indicated that they had seen imitation artwork
represented as authentic Indian artwork, many of their interpretations of “imitation” or
“counterfeit” do not actually constitute misrepresentation as defined by federal law. One
artist’s example of counterfeit products illustrates this misconception: “Sometimes on the
reservation Indians who are unable to make the real heishi10 buy plastic imported beads
and sell them as authentic heishi art work.” In this case, if the Indian artisan conceived
the design of the necklace and strung the plastic beads himself, he would not be in
violation of federal law.

Differences in Federal and State Laws

Finally, quantifying the extent of the counterfeit market is complicated by differences in
federal and state laws. Currently, there are 12 states with various laws regulating the sales
of Indian arts and crafts, ranging from the materials used to pricing and advertising. For
example, according to Arizona state law, if a product contains unnatural turquoise, the

8
  Tufa is porous rock formed from volcanic ash and used to form a casting mold.
9
  Authentic kachinas (or katsinas) are religious icons, meticulously carved by Hopi artists from cottonwood
root and painted to represent figures from Hopi mythology. Since it takes years of practice and religious
study to master kachina carving, genuine kachina dolls are made by only a small number of Hopi carvers.
10
   Heishi means “shell” and originally referred to pieces of shell that had been drilled, ground into beads,
and strung onto necklaces. Today, it also refers to tiny beads made of any natural material.


                                                     6
vendor must disclose whether the stone is stabilized, treated, reconstituted, or synthetic.
According to federal law, however, it is only illegal to misrepresent a product as Indian
made when it is not; the material used to make the product is irrelevant. The average
artist, consumer, and vendor are not likely to distinguish the federal from the state law.
Thus, conflicting aspects of the very laws designed to protect the integrity of Indian arts
and crafts may exacerbate the perception that there are more federal criminal violations
than there really are.

                              Ineffective Protections and Laws
As one of the most lucrative and sought after genres of art in America, the demand for
Indian arts and crafts attracts many non-Indians to pirate the profits. While well-
intended, the laws that pertain to Indian arts and crafts do little to protect Indian artisans
from the unfair competition created by low-priced, mass-produced imitations of their
work. The primary law, the Indian Arts and Crafts Act, is practically unenforceable and
does not provide adequate authority to the IACB. In addition, the vast majority of
imported Indian-style items will be marked as such with removable sticky labels, string
tags, or nothing at all due to weak country of origin marking regulations. Enforcement of
these laws largely depends upon the cooperation of agencies, such as the U.S. Attorneys
Offices, the FBI, and U.S. Customs and Border Patrol, all of which are outside the
Department’s control. In addition, there are conflicts between the Act and current
trademark law,11 which prevent the IACB from facilitating the registration of trademarks
for Indian artisans.

Problems With the Act

IACB’s Lack of Authority

Currently, the IACB has no investigative authority of its own, but instead must depend on
the FBI (or other government entities) to investigate possible violations of the Act.
Unfortunately, the FBI has very limited resources and is often unable to accommodate the
IACB’s requests for assistance. Other entities, such as the Bureau of Indian Affairs and
the OIG, have similarly limited resources.

In other industries, regulatory agencies can typically revoke licenses, suspend operations,
or levy fines. The IACB, however, has no such authority. In fact, there is little it can do
directly to enforce the Act beyond sending alleged violators a letter advising them of the
Act’s provisions.

In 2004, the Senate Committee on Indian Affairs attempted to remedy the IACB’s lack of
authority by including amendments to the Act in the failed Senate Bill 2843. If the bill
had passed, it would have allowed the IACB to impose administrative fines and penalties
of up to 100 percent of the price of the goods offered or displayed for sale in violation of


11
     The Lanham Act, 15 U.S.C. § 1051 et seq.


                                                7
the Act. In addition, the IACB would have been authorized to investigate violations of
the Act itself, rather than referring cases to the FBI.

Prosecutorial Difficulties

During its 70-year history, the Act has established, expanded, and clarified a legal
enforcement vehicle that is seldom used. Despite the strengthened enforcement
provisions of 1990 and 2000, there have been only two federal indictments and there has
yet to be a single federal civil or criminal conviction under the Act.

For example, in the late 1990s, the OIG investigated allegations that a South Dakota
jeweler was falsely selling his work as Indian made. Our investigation found that the
jeweler was not an enrolled member of any federally recognized Indian tribe, although he
routinely sold artwork marked as “Indian” to various purchasers. In December 1998, a
federal grand jury indicted him on two counts of misrepresentation of Indian-produced
goods and products and one charge of illegally collecting feathers from a protected
species. He ultimately pleaded guilty to a misdemeanor charge of possession of golden
eagle parts and was sentenced to a year of probation and a fine of $250.12 As part of the
plea arrangement, he agreed to remove the words “Indian” from the goods he sold and to
cease making claims that he was Indian. Although this case resulted in a “criminal
conviction,” it was not a conviction under the Indian Arts and Crafts Act.

Based on the experience of the OIG investigations office in New Mexico, which has
conducted the majority of OIG counterfeit investigations, as well as our discussions with
federal prosecutors in a number of jurisdictions where Indian arts and crafts abound, we
have learned that there are a number of reasons why criminal prosecution under this
statute is difficult, and thus unlikely. Specifically:

     • Knowledge and Intent
     In a criminal case, the government must prove, beyond a reasonable doubt, that the
     defendant knowingly and intentionally misrepresented the origin of the product. It is
     often relatively easy for the defense to prove that the product was accidentally or
     unintentionally misrepresented. The series of individuals in the distribution chain of
     mass-produced, Indian-style products presents an additional hurdle to successful
     prosecution. The following example is illustrative.

     In 1994 a well-known Hopi artist found copies of a piece of his jewelry for sale in an
     Arizona retail store. A subsequent investigation revealed that the copies had been
     made using a wax mold created from the original work at the request of a wholesaler,
     who then sold them to the retail store. The investigation revealed that the retailer
     believed that the items were authentic, but that the wholesaler had made no
     representations to the retailer about the origin of the jewelry. As a result, prosecutors


12
  Hugh O'Gara, “Who Makes Indian Art? Rapid City Man is First to Be Prosecuted Under Indian Arts and
Crafts Act of 1990,” Rapid City Journal. (S.D.), Sept. 19, 1999; “Man Charged With Selling Fake Goods,”
Rapid City Journal (S.D.), Dec. 23, 1998.


                                                   8
   were unable to prove that the retailer “knowingly” sold the jewelry in a manner that
   “falsely suggested” that it was Indian made.

   In addition, prosecutors have told us that a successful prosecution under this statute
   would be more likely if there were multiple offenses by a particular defendant, which
   would prove misrepresentation “beyond a reasonable doubt.” However, extensive
   investigative time and effort would be required to establish and thoroughly document
   such a pattern of conduct. Faced with a multitude of more serious offenses, most
   investigative agencies cannot dedicate the resources necessary to undertake such an
   effort.

   • Resources v. Financial Impact
   Although the successful prosecution of even a small case might have a significant
   overall impact on the counterfeit trade, the potential impact of the case must be
   weighed against the competing interests of other cases. Limited financial impact
   often weighs against prosecution under the Act because the individual value of
   misrepresented products, like jewelry, is relatively small.

   • Possession is not a Violation
   In many criminal investigations, the mere possession of a particular item is evidence
   that a crime has occurred. During our review, we heard several accounts involving
   “rooms full” of “Indian looking” products that appeared to be manufactured overseas.
   Although the existence of a large number of such products suggests that
   misrepresentation may ultimately occur, possession, alone, is not a criminal violation
   unless and until a misrepresentation has actually occurred.

   • Case Subjects
   Experience has shown that many persons who violate the Indian Arts and Crafts Act
   are small-scale vendors who operate from the trunks of their cars or a blanket on the
   sidewalk. Despite convincing evidence that the law was violated, prosecutors fear
   that a jury may be unwilling to convict a defendant who barely earns enough money
   to support a family. On the other hand, prosecutors would be interested in
   prosecuting a large-scale vendor who is earning large sums from the sale of
   misrepresented items. If these defendants are also engaged in other illicit activities,
   however, such as money laundering or tax evasion, prosecutors would likely focus
   their efforts on the crimes with proven conviction rates, rather than on the
   misrepresentation of Indian goods.

While it is difficult to bring a successful criminal prosecution in a misrepresentation case,
the standard of proof in a civil case is considerably lower. Civil suits may result in large
monetary fines that provide much more of a deterrent than a minor criminal sanction,
such as probation. For example, in one OIG investigation, criminal prosecution was
declined, but the defendant ultimately paid a $10,000 civil fine under New Mexico state
law.




                                             9
Customs Law and Trademark Law

Currently, there are laws in place that address authentication, specifically identifying the
country of origin and establishing trademarks. Many industry experts and artists told us
that one of the most effective solutions to the problems of misrepresentation and unfair
competition would be to strengthen and enforce the country of origin marking regulations
for Indian-style arts and crafts.

Customs

Customs and Border Protection Regulations13 require that unless a statutory marking
exception applies, Indian-style arts and crafts must be indelibly marked with the country
of origin by cutting, die-sinking, engraving, stamping, or some other equally permanent
method in a conspicuous location. Indian-style jewelry may be marked with a
permanently attached metal or plastic tag, and textiles may be marked with sewn-in
labels. Unfortunately, conditions for the statutory marking exceptions are easily met: if it
is “technically or commercially infeasible to mark in the manner specified”14 or if the
article is produced in a North American Free Trade Agreement (NAFTA) country, the
article need only be marked by an adhesive label or a string tag. In addition, the origin of
Indian-style jewelry may be indicated by simply marking the jewelry’s container, instead
of marking the jewelry itself.

Thus, the vast majority of imported Indian-style items will be marked with removable
sticky labels, string tags, or nothing at all (once removed from the wrapper or container).
These items can easily be misrepresented, intentionally or unintentionally, as genuine
Indian made at any point in the distribution chain.

According to industry experts and artists the exceptions to the marking regulations should
be reduced or eliminated. One expert explained: “Individual consumers could then make
an informed decision as to which product to buy. If they want an authentic Indian-made
product, then they will be willing to pay a higher price for it. Otherwise, they can
purchase the cheaper, non-authentic product. But either way, the consumer will know the
difference and will not be fooled into purchasing a counterfeit article.”

We recognize that enforcement of the country of origin marking regulations is difficult.
Currently, CBP officers are only able to inspect approximately 2 percent of the sea
containers entering the country. Even if the exceptions to the marking regulations were
removed today, there still would not be enough CBP officers to adequately enforce them.




13
  19 CFR Part 134 implements the country of origin marking requirements and exceptions of 19 U.S.C. §
1304.
14 19 CFR § 134.43 (c) (3).




                                                  10
Trademarks

Discussions with industry experts also indicated that the establishment of trademarks for
Indian artists could help the public identify genuine Indian products and thus help
mitigate unfair competition with imitations. The Act’s original trademark provisions
provided for the registration of Indian artists under a government-owned trademark,
which most artists were not interested in as it did not give them exclusive rights.
Currently, pursuant to the 1990 amendments, the IACB is authorized to establish a
government trademark for genuine Indian products, register these trademarks, and assign
them to individual Indians or tribes without charge. However, two ambiguities in the
statutory language of the Act have prevented the IACB from developing a trademark
registration program.15 First, although one section of the Act authorizes the IACB to
create trademarks of genuineness and quality for individual Indians, Indian tribes, and
Indian arts and crafts organizations,16 a later section only authorizes the IACB to register
those trademarks with the U.S. Patent and Trademark Office (PTO) for individuals and
tribes.17 This silence about the registration of trademarks for arts and crafts organizations
appears to be a drafting oversight.

Second, and more importantly, the Act's trademark registration provision conflicts with
federal trademark law as set forth in the Lanham Act. Currently, the Act authorizes the
IACB to register a genuineness and quality "trademark owned by the Government in the
United States Patent and Trademark without charge and assign it and the goodwill
associated with it to an individual Indian or Indian tribe without charge."18 Thus,
according to the Act, the trademark rights would first belong to the U.S. Government and
then be transferred to an Indian individual or tribe. However, according to the Lanham
Act, the applicant to register a trademark must be the owner, or if the application is for
intent-to-use, the applicant must be entitled to use the mark and have a bona fide
intention to use the mark.19 Under the Act’s current trademark registration provision, the
U.S. Government does not meet this definition of "owner." Therefore, the registration by
the IACB of a trademark in which an Indian was the true owner would be defective under
the Lanham Act, and thus void,20 as there is no way to cure a defective registration after
the fact.




15 Although the chair of the IACB testified about these deficiencies at the May 2000 Senate Committee on
Indian Affairs Oversight Hearing on Indian Arts and Crafts, and explicitly offered to provide statutory
language to amend the IACA, Congress did not clarify the trademark sections of the Act when it amended
other sections of the IACA in October 2000.
16 25 U.S.C. § 305a(g)(1) (1994)
17 Id.
18 Id.
19 15 U.S.C. § 1051 (1994).
20 Id.




                                                   11
An Industry Best-Practice

Given all these impediments to successful enforcement against counterfeiters of Indian
arts and crafts, it is unrealistic to expect that federal law enforcement agencies – or even
state or local agencies – will investigate allegations of Indian arts and crafts
counterfeiting or misrepresentation. Indian artisans are not alone, of course, when it
comes to counterfeiting. Major manufacturers of well-known, brand-name products have
taken a number of advocacy measures in the fight against counterfeiting. One such
measure is to hire a private investigative firm to conduct an investigation, compile
evidence, and present a package to prosecutors. These firms, typically staffed with
former federal and state criminal investigators, help corporations enforce their rights in
both civil and criminal cases. They are familiar with counterfeiting operations and have
experience following small dealers to their large-scale suppliers. We researched several
such firms. One interviewee cautioned that “you can slow the counterfeit market down,
but you can never stop it.” One representative also stressed that victims of counterfeiting,
such as Indian artisans, cannot rely solely on Customs to stop counterfeiting. If the
problem is significant enough, hiring a private firm to do this kind of work may provide
just enough deterrent effect to make a difference.




                                            12
                                    CONCLUSION
The results of our review suggest that the IACB has spent most of its effort focusing on
the highest, and most difficult, level of counterfeit enforcement: criminal prosecution.
However, as we have documented in this report,
this level has produced no identifiable results, by
way of either criminal convictions or a measurable                      Criminal

decrease in counterfeit activity.
                                                                               Civil

The enforcement pyramid presumes that most
behaviors can be corrected with the least amount
                                                                       Administrative Actions
of activity or force, or the lowest level of the
pyramid. For example, at the base of the pyramid,
the IACB currently disseminates educational                    Voluntary or Educational Compliance
brochures containing information on the Act. (In
fact, our survey respondents favored education
over enforcement as a means to obtain                         Enforcement Pyramid
compliance.)

When voluntary measures fail, the IACB could pursue action through steadily increasing
levels of severity, such as administrative actions or civil remedies that are provided by
the Act. At the highest level, criminal charges could be brought against significant
violators who failed to respond to the lesser enforcement efforts. Since the criminal level
requires the most time and effort to be successful, it should be employed only as a last
resort in instances where lesser measures have failed.




                                            13
                                  SUGGESTED ACTIONS
With many Indian communities plagued by unemployment and stagnant economies, the
deluge of imitation arts and crafts is undermining one of the few forms of
entrepreneurship and economic development on Indian reservations.21 While imported
and domestic imitations hurt the Indian artisan, they are not illegal. In the current global
economy, the problem of unfair competition may simply be one that federal law cannot
adequately address, as is the case with other U.S. industries such as textiles. For Indian
artisans, the playing field will never be level as long as imitation Indian-style arts and
crafts can be manufactured overseas or mass-produced domestically at significantly
reduced prices.

The Congress amended the Act in 1990 “to protect Indian artists from unfair competition
from counterfeits.” Although there is no single course of action to solve the numerous
problems facing the Indian art industry, there are some actions the Department can take
to mitigate the current situation. We suggest the Department, in cooperation with the
IACB, should:

1. Encourage the re-introduction of the Indian Arts and Crafts Act Amendments in
   Section 3 of Senate Bill 2843. These amendments would give the IACB the authority
   to (a) investigate violations of the Act; (b) enforce the Act through the imposition of
   fines for violations; (c) enforce the Act through injunctive relief; and (d) enter into a
   reimbursable support agreement with federal, state, tribal, regional, and local law
   enforcement entities.

2. Collaborate with the CBP to revise the country of origin marking regulations to
   remove exceptions and require that Indian-style jewelry items (and other applicable
   items) be indelibly marked, not just their containers.

3. Work with the Congress to amend the Act to clarify that the IACB is authorized to
   facilitate the registration of trademarks that are owned directly by Indian individuals,
   tribes, and arts and crafts organizations and/or enter into a Memorandum of
   Understanding with the Department of Commerce to allow the IACB to register and
   assign trademarks on behalf of Indian individuals, tribes, and arts and crafts
   organizations.

4. Consider seeking civil penalties for misrepresentation before resorting to criminal
   penalties. If the amendments in Section 3 of Bill S. 2843 pass, the IACB should also
   focus on administrative actions.




21
 Implementation of the Indian Arts and Crafts Act of 1990: Oversight Hearing Before the Senate
Committee on Indian Affairs, 106th Congress (2000).


                                                  14
              COVER PHOTOS:

      INDIAN ARTS AND CRAFTS BOARD
       DEPARTMENT OF THE INTERIOR

                Baskets:
              (Left to right)
    Eva Wolfe, Helen Smith, Cherokee;
        Marion John, Coushatta

                 Mask
          Murray Clayton, Tinglit

                  Bracelets:
Top left and center: Jimmie Harrison, Navajo
               Copyright 1984

     Top right: Harvey Begay, Navajo
             Copyright 1983

      PHOTOS ON PG. 4 COURTESY OF:

COUNCIL FOR INDIGENOUS ARTS AND CULTURES

       Photos taken by Tony Eriacho




                    15
16
